OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/GUATEMALA’S FAMILY
PLANNING ACTIVITIES
AUDIT REPORT NO. 1-520-07-001-P
OCTOBER 6, 2006




SAN SALVADOR, EL SALVADOR
                     Office of Inspector General




    October 6, 2006

    MEMORANDUM

    TO:                USAID/Guatemala Director, Wayne Nilsestuen

    FROM:              RIG/San Salvador, Timothy E. Cox /s/

    SUBJECT:           Report on Audit of USAID/Guatemala’s Family Planning Activities (Report
                       No. 1-520-07-001-P)

    This memorandum transmits our final report on the subject audit. We have carefully
    considered your comments on the draft report in finalizing the audit report and have
    included your response in Appendix II of the report.

    The report includes four recommendations for your action. Management decisions for
    these recommendations can be recorded when we agree on a firm plan of action, with
    timeframes, for implementing these recommendations. Would you please let us know
    within 30 days what actions have been planned or taken to implement these
    recommendations?

    I appreciate the assistance provided to the auditors on this engagement.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Guatemala’s family planning activities achieve the planned
results described in its strategic plan, in Congressional Budget
Justifications, and in cooperative agreement and contract documents?........................... 4

     CYP Targets Should Be Set Through a More
     Rigorous Process........................................................................................................ 7

Did USAID/Guatemala and its partners manage family planning activities
in an efficient manner?.................................................................................................... 10

     Non-Governmental Organizations Working
     With the MOH Had Excess Contraceptive Stocks .................................................... 11

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
Guatemala lags behind nearly every other country in Latin America with respect to the
total fertility rate and the contraceptive prevalence rate. There are significant differences
in the total fertility rates in urban and rural areas, and disparities between urban and
rural areas actually increased from 1998/9 to 2002 (the latest information available).
(See page 2.)

In 2005, two partners working with USAID/Guatemala were responsible for achieving
family planning program objectives. The University Research Corporation, through its
Calidad en Salud II project, provided technical and financial assistance to the Ministry of
Health (MOH) and a network of non-governmental organizations that work with the MOH
to improve and expand family planning services. The second partner, APROFAM,
provided family planning services primarily, but not exclusively, to lower income families
throughout Guatemala. (See pages 2 and 3.)

As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/Guatemala family planning activities achieve the planned results
    described in its strategic plan, in Congressional Budget Justifications, and in
    cooperative agreement and contract documents?

•   Did USAID/Guatemala and its partners manage family planning activities in an
    efficient manner? (See page 3.)

With respect to the first question, USAID/Guatemala met all of the performance targets
for which information was available for FY 2005 as described in its strategic plan, in
Congressional Budget Justifications, and in cooperative agreement and contract
documents. (See page 4.) However, in performing field work, we noted deficiencies
affecting CYP targets (page 7).

With respect to the second question, the mission and its partners managed family
planning activities in an efficient manner. However, non-governmental organizations
working with the MOH had excessive stocks of contraceptives. (See page 10.)

The report recommends that USAID/Guatemala revise CYP targets, disaggregate
program targets between urban and rural areas, transfer excess contraceptives where
they can be used expeditiously, and make sure that only one organization is given
responsibility for determining contraceptive requirements for the NGOs working with the
Ministry of Health. (See pages 9, 10, 12 and 13).

USAID/Guatemala was in agreement with much of the information in our draft audit
report but disagreed with several specific statements and recommendations in the draft
report. After reviewing the Mission’s comments, we deleted one finding (dealing with
incorrect reporting on CYP achieved) since the total error was less than 5 percent of the
correct amounts and was therefore not considered to be significant. The Mission’s other
comments and our evaluation are summarized after each finding, and the Mission’s
comments in their entirety are included in Appendix II.



                                                                                           1
BACKGROUND
Guatemala lags behind nearly every other country in Latin America with respect to two
key family planning indicators: the total fertility rate1 of 4.4 children per woman is the
highest of any country in Latin America, and the contraceptive prevalence rate2 of 43
percent among women in union aged 15-49 is the second lowest in Latin America.
Moreover, the National Maternal Child Heath Survey data presented below in Tables 1
and 2 show significant differences in total fertility rates for urban and rural women and
for women with different levels of education. While total fertility rates for all women
declined from 1998/9 to 2002 (the latest information available), the disparities between
these groups of women actually increased.

Table 1 – Total Fertility Rates for Women Living in Urban and Rural Areas

Category                                                                   1998/99       2002
Women in urban areas                                                         4.1          3.4
Women in rural areas                                                         5.8          5.2
Difference between rural areas and urban areas                              41%          53%

Table 2 – Total Fertility Rates by Educational Level

Category                                                                   1998/99      2002
Women with no education                                                      6.8         6.4
Women with primary education                                                 5.2         4.7
Women with secondary education                                               2.9         2.1
Difference between women with no education and women with                   134%        204%
secondary education

The Mission’s current strategic plan focuses on increasing the national-level impact of
USAID’s family planning program and strengthening Guatemalan family planning
institutions. The strategy is intended to increase coverage, improve the quality of family
planning services, integrate family planning services with other health services, and
bridge the gap between the total fertility rate in urban and rural areas. Implementation of
the new strategy was to begin on October 1, 2004 and end by September 30, 2009.
However, the previous strategy was extended for 6 months, from September 30, 2004 to
March 31, 2005, so the previous strategy and the new strategy overlapped for six
months.

To achieve these objectives, family planning assistance is provided through three
components described in the following paragraphs.

Calidad en Salud II (Health Quality) – The University Research Corporation (URC),
through a contract signed in September 2004, provides technical and financial
assistance to the Ministry of Health (MOH) of Guatemala and approximately 63 non-

1
    The total fertility rate is the number of children that an average woman gives birth to in her
    lifetime, assuming that prevailing fertility rates remain unchanged.
2
    The percent of currently married women of reproductive age (normally defined as the range 15
    to 49 years) who use contraception.


                                                                                                2
governmental organizations that work with the MOH to extend family planning services
into previously unserved rural areas. The purpose of the assistance is to improve the
quality of family planning services, particularly in those geographic areas under-served
by the existing MOH delivery system. To achieve this objective, the URC provided
assistance to the MOH in meeting demand for family planning services, improving the
logistical system for contraceptives, improving the ability of the MOH to finance its
contraceptive requirements, and strengthening the capacity of the MOH to forecast, and
procure its contraceptive needs.

APROFAM – Under a cooperative agreement signed in April 2005, APROFAM provides
family planning services primarily, but not exclusively, to lower-income families
throughout Guatemala. In providing these services, APROFAM places emphasis on
quality and financial sustainability. In addition to family planning services, APROFAM
offers reproductive health services that include maternity and delivery care, cancer
screening, ultrasound examinations, optimal birth spacing, sexually transmitted infection
(STI) prevention and treatment, and infertility treatments. The organization also provides
pediatric care and general medical care including x-rays, dermatology, cardiology,
general surgery, and pharmaceutical services.

Strategic Alliance for Social Investment Project (Alianzas) – Under a cooperative
agreement signed in January 2005, the Research Triangle Institute manages Alianzas, a
project that aims to build private sector alliances to increase access to, and improve the
quality, equity, efficiency, and use of, basic health, nutrition, and education services.
Alianzas was designed to reduce the unmet need for services, and targets its
activities to underserved rural areas. Only $352,726 has been spent under the Alianzas
activity and no results have been reported to date. Consequently, we did not include this
partner in our audit.

This audit was performed in conjunction with another audit to determine whether
activities under USAID/Guatemala’s cooperative agreement with APROFAM complied
with the Tiahrt Amendment. The Tiahrt work is the subject of a separate audit report.

From October 2004 through December 2005, USAID/Guatemala obligated $13.6 million,
expended $3.9 million, and provided $233,613 in family planning commodities in support
of its family planning and other health related activities.

AUDIT OBJECTIVES
As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/Guatemala’s family planning activities achieve the planned results
    described in its strategic plan, in Congressional Budget Justifications, and in
    cooperative agreement and contract documents?

•   Did USAID/Guatemala and its partners manage family planning activities in an
    efficient manner?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                        3
AUDIT FINDINGS
Did USAID/Guatemala’s family planning activities achieve the
planned results described in its strategic plan, in Congressional
Budget Justifications, and in cooperative agreement and
contract documents?
USAID/Guatemala’s family planning activities achieved the planned results described in
its strategic plan, its Congressional budget justifications, and in cooperative agreement
and contract documents. However, as described in the section beginning on page 7,
couple-years of protection (CYP) targets need to be established in a more rigorous
fashion.

In 2005, as shown in Tables 3 and 4 below, the implementers achieved their planned
results.

Table 3 – Results by Implementer

    Implementer            Planned Result                                 Target       Actual
    University Research    Couple-years of protection (CYP)              FY 2005      FY 2005
    Corporation            achieved by the Ministry of Health3           294,190      316,149
                           CYP achieved by non-governmental              Included     FY 2005
                           organizations (NGOs) that work with           in target     10,980
                           the Ministry of Heath                         for MOH
                                                                          above4
                           Percentage of contraceptives                    2005         2005
                           purchased by the Ministry of Health             30%          40%
                           (as opposed to received as donations)
    APROFAM                CYP                                           FY 2005       FY 2005
                                                                         210,584       237,582
                           Level of sustainability5                       2005          2005
                                                                          90%           91%

Table 4 – Overall Program Results

    Planned Result                                                        Target        Actual
    CYP6                                                                 FY 2005       FY 2005
                                                                         544,702       564,711
3
  CYP is a common indicator used to measure the impact of family planning activities. CYP is the
  number of couples protected from unplanned pregnancies during a one-year period, based on
  the number and type of contraceptives distributed during the period.
4
  Mission officials stated that the target of 294,190 CYP for the MOH shown above included the
  NGOs working with the MOH. However, URC officials disagreed and maintained that the target
  of 294,190 CYP was only for the MOH. See the related finding beginning on page 7.
5
  The level of sustainability is calculated as locally generated revenues divided by total costs.
  Both the target and actual result are for calendar year 2005.
6
  The target for the overall program does not reconcile with the targets for individual partners.
  See the related finding on page 7.


                                                                                               4
    Planned Result                                                            Target        Actual
    Total fertility rate7                                                    FY 2007         Not
                                                                               4.0         available

    Contraceptive Prevalence Rate8                                           FY 2007         Not
                                                                              49%          available


The following sections summarize the evidence supporting our conclusions that URC
and APROFAM met their targets for providing quality family planning services and
establishing a financially sustainable family planning program. Areas for improvement
are discussed beginning on page 7.

University Research Corporation (URC) – Calidad en Salud II strengthened the
capacity of the MOH to improve and expand family planning services, provide effective
counseling, education and information on family planning throughout the network of
MOH facilities and NGOs under the coverage extension program, URC provided
training, technical, and financial assistance to the MOH. URC also provided assistance
to the MOH in strengthening its capacity to measure its contraceptive needs, carrying
out the financial planning necessary to ensure that it was able to finance an increasing
share of its contraceptive needs, ensuring the availability of a mix of family planning
methods at all MOH facilities and in establishing long-term contraceptive security.

The MOH and a network of NGOs that work with the Ministry to serve remote rural areas
achieved 327,129 CYP during FY 2005, exceeding the target of 294,190 CYP. We did
not find any shortages of family planning supplies at the 11 MOH facilities we visited. An
annual survey conducted by URC on the 1,383 MOH facilities indicated that the MOH
experienced a stock out rate of 13 percent in 2005 compared to 21 percent in 2004.
There are still challenges to meet in ensuring contraceptive supplies, but URC has
developed appropriate strategies that will assist the MOH. The stock out rate in 2006
decreased further to 7 percent.

The problems we encountered during our visits to MOH facilities included a lack of
information, education, and communication (IEC) material and a low rate of usage of
IUDs compared to other family planning methods. The URC has identified the same
issues and other problems and is providing assistance to the MOH to produce and
distribute IEC materials, develop a training curriculum, and promote and increase the
use of long-term family planning methods.

One of the objectives of the program was to ensure that the MOH had the financial
capacity to purchase needed contraceptive supplies in an environment of increasing
demand. USAID has been donating contraceptives to both the MOH and a network of
about 63 NGOs contracted by the MOH as part of the "extension of coverage program"
providing family planning services to rural communities to extend the coverage of the
MOH to 3 million people. The United Nations Population Fund has also been donating

7
    This target is to be achieved by the end of FY 2007. No current information on the total fertility
    rate is available since the most recent National Maternal Child Heath Survey was done in 2002.
8
    This target is to be achieved by the end of FY 2007. No current information on the
    contraceptive prevalence rate is available since the most recent National Maternal Child Heath
    Survey was done in 2002.


                                                                                                    5
contraceptives provided that the MOH gradually buys an increasing portion of their
contraceptive needs. In 2005, the MOH purchased 40 percent of its contraceptives, up
from 30 percent in 2004.

The MOH does not charge clients for its family planning services and supplies and this
creates a strain on its budget. In an effort to meet its financial needs, the Government of
Guatemala has allocated 15 percent of alcohol taxes to pay for reproductive health,
family planning, and alcoholism program costs. URC is also working to develop
information and education materials to encourage family planning clients to consider all
available family planning methods, perhaps reducing the reliance of the MOH’s clients
on injectable contraceptives that are relatively expensive for the MOH to purchase.
(Currently, 54 percent of the MOH’s family planning clients use injectable
contraceptives.) Also, the MOH is beginning to discuss charges for family planning
products to clients who are able to pay.

APROFAM – APROFAM had three major organizational components that provide family
planning information, products, and services to all 22 regions of Guatemala. Its Clinical
Services program includes a network of 30 clinics. Its Rural Development Project
includes about 60 educators and 3,200 rural voluntary promoters. Its marketing
department includes 11 service promotion/referral agents and three supervisors who
support APROFAM’s mobile surgical units that provide voluntary sterilizations and other
services in non-permanent locations. APROFAM provides a wide variety of reproductive
health services, medicines, and contraceptives for middle and lower-income Guatemalan
families. The prices for contraceptives provided by APROFAM are much lower than the
prices of commercial pharmacies. During FY 2005, APROFAM achieved 237,582 CYP,
exceeding the established target of 210,584 CYP.

USAID/Guatemala supported the long-term sustainability of APROFAM by providing
training to management staff and community promoters, developing monitoring statistics,
purchasing computer equipment, making improvements to physical facilities, and, until
2004, donating contraceptives. APROFAM measured its sustainability by comparing
locally generated revenues with total costs. In 2005, locally generated revenues
covered 91 percent of APROFAM’s total costs.

Along with successes in the Mission’s family planning program, we noted opportunities
to improve the process for setting CYP targets. These issues are discussed in the report
section beginning on page 7.

Evaluation of Management Comments – In response to our mention of low levels of
IUD usage above on page 5, USAID/Guatemala stated that:

   One of the fundamental principles of our family planning program is to allow participants
   to freely choose the contraceptive method that they feel will work best for them. Our
   programs do not promote one method over the other; rather, the method selected
   depends on a particular woman’s or man’s circumstances and whether the medical
   practitioner thinks that a long-term method may be appropriate, and the woman/man
   chooses that method after being fully informed of its benefits and risks. As long as a
   comprehensive program with a broad mix of contraceptive methods is available and
   women and men freely choose which family planning method is best for them, the relative
   level of use for different methods should not be a concern.




                                                                                               6
To supplement the Mission’s comments, it is relevant to disclose that the Mission asked
URC to “decrease the bias against IUDs” as explained more fully in the following excerpt
from the contract between USAID/Guatemala and URC:

   According to the MSPAS [Ministry of Health] service statistics, health centers insert on
   average less than one IUD per month. Only seven of the twenty six health areas
   reported more than four insertions per month in 2001. This figure is very low considering
   that each health area has on average eleven health centers. Provider bias and lack of
   MSPAS capacity to offer the IUD (trained personnel, equipment) are limiting client’s
   choice and access to this method, which is safe, cost-effective and long lasting. The
   Contractor shall work with local health providers to dispel misinformation and make them
   aware of the advantages of the IUD and the need to include it in the method mix offered
   in response to client needs/preferences. Special efforts are required so that IUD
   insertion services will be available at every public hospital and health center and at
   selected health posts via trained auxiliary nurses. The IUD could also increase the range
   of effective modern methods available at the community level. Each NGO contracted by
   the MSPAS has at least one physician or nurse that could be trained to become a
   proficient provider of IUD.

At the same time, USAID/Guatemala’s contract with URC stated that URC would be
expected to “decrease bias in favor of Depo-Provera” (an injectable contraceptive) as
explained in the following passage from the contract with URC:

   Injectables are the first contraceptive choice of Guatemalan women and the program
   should continue to be responsive to client preferences. However, since the MSPAS does
   not charge for any contraceptive and the worldwide price paid by USAID and UNFPA for
   their donations of Depo-Provera are below commercial market value of injectables in
   private pharmacies by an order of twenty-fold, bias toward this high recurrent cost,
   heavily subsidized method is creating an increasing financial burden on the MSPAS’
   budget that will be impossible for the MSPAS to support in the future once donations end.
   The Contractor will work to assure that providers do not favor this method to the
   detriment of others. Policy dialogue and work with the MSPAS on beginning to charge
   actual cost for contraceptives to those with ability to pay and to better target its free
   services to the poor would be very desirable. An undesirable consequence of poor
   targeting of free MSPAS family planning services is a cannibalization of APROFAM’s
   sales of contraceptives and its sustainability, because as MSPAS services grow in rural
   areas, people who once went to APROFAM and were willing to pay now go to the
   MSPAS for free Depo-Provera.

We believe that the Mission’s intention was not to compel family clients to choose one
family planning method over another but rather to help remove institutional constraints
that artificially limited the availability of IUDS and at the same time work toward reducing
the availability of subsidies that made injectable contraceptives more attractive to family
planning clients. We believe that such efforts are consistent with the principle of
voluntarism in family planning programs.

CYP Targets Should Be Set
Through a More Rigorous Process
Summary: According to USAID guidance, performance targets should be established
through a disciplined, thoughtful process that considers what can realistically be
achieved under a given program. However, CYP targets were inconsistent with one
another or were set too low to challenge partners to increase their performance over


                                                                                               7
time. Because no record was kept to show how targets were developed, we could not
definitively determine why these problems occurred, but it appeared to us that a more
rigorous, disciplined process for establishing targets would have prevented the problems
from occurring. As a result of these problems, the targets were less useful than they
could have been in inspiring improved performance over time.

According to USAID TIPS No. 8, program performance targets should be based on
careful analysis of what is realistic to achieve, given the conditions within the country
and other factors. USAID Automated Directives System (ADS) Section 203.3.4.5 states
that each indicator should include a performance baseline and set performance targets
that can optimistically but realistically be achieved within the stated timeframe and with
the available resources. Targets that are set too low become irrelevant and are not
useful for management and reporting purposes.

•   The overall program target for CYP in FY 2005 of 544,702 did not reconcile with the
    CYP targets for individual partners, which totaled 504,774 (a difference of 7.3
    percent). Similarly the overall program target for CYP in FY 2006 of 559,411 did not
    reconcile with the targets for individual partners, which totaled 509,650 (a difference
    of 8.9 percent). According to the Mission, these differences occurred because
    overall program targets were not updated after targets with individual partners were
    negotiated.

•   The CYP targets for FY 2005 had already been achieved in FY 2004, before the new
    strategy began. Similarly, the target for FY 2006 had already been met in FY 2005.
    To set program targets, the Mission used an FY 2004 baseline value of 530,694
    CYP, but this was 4.7 percent less than the actual baseline value of 556,717 CYP as
    shown in Table 5 below. According to USAID/Guatemala, this situation occurred
    because the targets were based on erroneous baseline information and the targets
    were not updated after the baseline information was corrected.

    Table 5 – Program CYP Baseline, Targets, and Results

      Fiscal Year        CYP Target         Actual CYP
         2004               NA               556,717
       (Baseline)
          2005             544,702            564,711
          2006             559,411              N/A
          2007             574,856              N/A
          2008             591,074              N/A
          2009             608,102              N/A

•   USAID/Guatemala stated that the FY 2005 CYP target for the MOH (294,190)
    included the NGOs working with the MOH through its extension program. However,
    URC officials who were responsible for assisting the MOH believed that the target
    did not include the NGOs working with the MOH. After our audit was completed, the
    Mission obtained URC’s acknowledgment that the targets included the NGOs.

•   The CYP targets established for APROFAM during the new strategy for FY 2005 to
    FY 2009 were to achieve 84 percent of what APROFAM achieved in 2004. Mission
    officials explained that they set low expectations for CYP because they wanted


                                                                                         8
    APROFAM to focus on sustainability. USAID’s TIPS 8, “Establishing Performance
    Targets,” states that “A natural tension exists between the need for setting realistic
    targets and the value, from a motivational perspective, of setting targets high enough
    to ensure that staff and stakeholders will stretch to meet them.” In our judgment, in
    this case, the Mission did not set targets high enough to motivate APROFAM’s best
    efforts.

    Table 6 – APROFAM CYP Targets and Results

        Year             Target           Actual
        2004              NA             249,822
      (Baseline)
         2005            210,584         237,582
         2006            210,584           NA
         2007            210,584           NA
         2008            210,584           NA
         2009            210,584           NA

    According to USAID/Guatemala, several factors influenced the Mission’s decision to
    set targets at this level. First, USAID funds for APROFAM were reduced from about
    $2.5 million per year under the previous strategy to about $1.9 million per year under
    the current strategy. Second, the Ministry of Health was expanding the availability of
    family planning services at no cost to clients, increasing competitive pressures on
    APROFAM. Third, in 2005, USAID changed the standard CYP conversion factor for
    sterilizations from 11 CYP per sterilization to 10 CYP per sterilization, reducing the
    number of CYP that APROFAM would get credit for if the same number of
    sterilizations were performed.

•   While the current strategy was designed to help bridge the gap between urban and
    rural areas with respect to access to family planning services, targets were not
    disaggregated between urban and rural areas. Therefore, USAID and its partners
    did not have a shared understanding of what was expected in terms of bridging this
    gap, and USAID and its partners were not able to monitor progress toward bridging
    the gap.

Because no record was kept to show how targets were developed, we could not
definitively determine why these problems occurred, but it appeared to us that a more
rigorous, disciplined process for establishing targets would have prevented the problems
from occurring.

As a result, some targets were set too low to encourage improved performance over
time, and the lack of disaggregated urban and rural targets meant that the Mission and
its partners could not monitor progress toward making family planning services more
accessible in rural areas.

    Recommendation No.1: We recommend that USAID/Guatemala revise its targets
    for couple-years of protection so that partners will be challenged to improve on
    past performance and also to make targets consistent with one another.




                                                                                        9
   Recommendation No. 2: We recommend that USAID/Guatemala disaggregate
   established targets between urban and rural areas for the total fertility rate, the
   contraceptive prevalence rate, and couple-years of protection.

Evaluation of Management Comments – In its response to the above finding and
recommendations, USAID/Guatemala clarified the reasons that led to some of the
situations above and provided specific comments on the recommendations.

In response to Recommendation No. 1, the Mission established new targets for FY 2004
through FY 2006. These included a “lower target” (which is the same as the current
target that we criticize above as not being sufficiently challenging) and an “upper target”
for each year for APROFAM. In our opinion, the new targets do not fully respond to the
intent of the recommendation. First, targets have only been established for fiscal years
that have now ended. What is needed is to establish targets for future periods. Second,
in our opinion, establishing a “lower target” and an “upper target” for APROFAM creates
more problems than it solves. Which of the two targets will be used to measure
APROFAM’s performance? If the “lower target” is used, then establishing the “upper
target” serves no useful purpose and nothing substantive has changed. If, on the other
hand, the “upper target” will be used, then keeping the “lower target” serves no purpose.

The Mission did not agree with Recommendation No. 2. The Mission noted that current
reporting systems in use by APROFAM and the MOH do not permit reliable reporting on
achievements in urban and rural areas, although this information will be gathered and
reported on in the 2007 demographic and health survey in Guatemala.

We continue to believe that separate targets for urban and rural areas are needed.
“What gets measured gets done,” and the last demographic and health survey in 2002
indicated that disparities between urban and rural areas were getting larger, not smaller
(see page 2 above). Annual reporting on these differences would be very desirable, in
our opinion, and we do not see any insurmountable obstacles to such reporting. For the
MOH, all that would be needed is to classify each MOH facility as an urban or rural
facility. For APROFAM, whose facilities draw clients from wider areas that may include
both urban and rural clients, the change would be more difficult, but, according to the
cognizant technical officer, USAID already plans to help APROFAM implement and
improved family planning information system.              Even if annual reporting on
accomplishments in urban and rural areas turns out not to be feasible – and we are not
convinced that this is the case – we would still advocate establishing separate targets for
the five-year periods covered by the demographic and health surveys. Otherwise, there
is little assurance that USAID and its partners will focus on reducing the large disparities
between access to family planning services in urban and rural areas.


Did USAID/Guatemala and its partners manage family
planning activities in an efficient manner?
USAID/Guatemala and its partners managed family planning activities in an efficient
manner. USAID had developed two efficiency indicators to measure the efficiency of
operations of both APROFAM and the MOH, and these performance indicators were
met.



                                                                                         10
In 2005, APROFAM was expected to cover 90 percent of its total costs with locally
generated revenues and in fact it covered 91 percent of its total costs, slightly exceeding
the target. We verified APROFAM’s reporting on the sustainability of its operations by
reviewing audited financial statements and recalculating the percentage of total costs
covered by locally generated revenues.

In FY 2005, the MOH was expected to purchase 30 percent of its contraceptive needs,
and it exceeded the expected level of performance by purchasing 40 percent of its
contraceptive needs. We verified the reported percentage by reviewing supporting
documentation provided by URC.

While USAID/Guatemala and its partners were managing family planning activities in an
efficient manner, we did find one opportunity to improve efficiency which is discussed
below.

Non-Governmental Organizations Working
With the MOH Had Excess Contraceptive Stocks
 Summary: USAID guidance recommends an end-of-year stock level for contraceptives
 of not more than 12 months’ needs. At the end of 2005, the stock level of USAID
 donated contraceptives for the MOH’s extension program with NGOs represented
 more than three years’ needs. This overstock situation occurred because there was
 no clear accountability for programming and projecting annual contraceptive
 consumption and because the NGOs’ family planning programs were slow in getting
 underway. As a result, unnecessary expenses were incurred to purchase and store
 contraceptives that were not needed, and the contraceptives were at risk of loss or
 expiration.

The USAID Contraceptive Procurement Guide and Product Catalog recommends a
year-end stock level that should generally not exceed 12 months to ensure continuous
availability of stock without the necessity of managing excess stocks that would waste
resources and risk expiry of contraceptives.

As shown in Table 7 below, at the end of 2005, the year-end stock level of USAID
donated family planning commodities to the MOH NGOs was more than three years.
(We calculated average annual consumption by examining experience for the last two
years as recommended by USAID’s Contraceptive Procurement Guide and Product
Catalog.)

Table 7 – MOH NGOs USAID Donated Contraceptive Stock Levels

   Contraceptive      Stock Levels       Average        Years’ Supply    Expiration Date
                          as of          Annual           on Hand
                       12/31/2005      Consumption
Condom                    98,577           26,504             3.7           June 2009
Oral contraceptive        25,886            7,672             3.4         November 2009
Injectable                87,118           26,803             3.3          January 2009
contraceptive




                                                                                        11
According to the cooperative agreement between USAID and APROFAM, APROFAM is
responsible for the storage and distribution of contraceptives donated by USAID to the
NGOs working with the MOH. Specifically, APROFAM is responsible for:

•   Preparing the contraceptive procurement tables in coordination with the MOH and
    USAID.

•   Receiving the contraceptives and temporarily warehousing them.

•   Receiving from the MOH monthly consolidated reports on consumption of each of
    the contraceptive for each NGO partner, with the objective of planning the future
    contraceptive needs.

•   Receiving requests for contraceptives from each of the MOH NGOs.

•   Distributing in a timely manner the contraceptives to the NGOs.

The cooperative agreement also states that other activities will be carried out by MOH
“to assure the management and destination of the donated contraceptives” but it did not
explain these other activities or describe the MOH’s responsibilities.

Since responsibility for projecting annual contraceptive consumption was shared by the
MOH, APROFAM, and USAID/Guatemala, no one was clearly accountable for the
decisions made. Also, the MOH extension program with the NGOs was slow in starting:
while the MOH was expected to work with 100 NGOs, only 63 NGOs were active in the
program as of December 2005 and only 35 were active during the period from January
to April 2006.

USAID/Guatemala officials said that they first learned about the excess supply of
contraceptives at the NGO level during site visits to three NGOs, two of whom held
excess supplies of contraceptives, in March 2006. They reduced the stocks at these two
NGOs by transferring contraceptives to other NGOs that had just joined the program.
The Mission also adjusted contraceptive orders for 2006, canceling one shipment and
significantly reducing another shipment. In June 2006, during our audit, the Mission
requested APROFAM to dispatch additional contraceptives to new NGOs just entering
the program. This has significantly reduced the stocks held for the NGOs in the
APROFAM warehouse. However, it remains to be seen how quickly the supplies can be
used by the new NGOs.

Because of the excess supplies as of December 2005, the cost of storing the
commodities was higher than necessary as was the risk of loss. Given usage levels
from January through April 2006, we estimate that $80,905 of the contraceptives on
hand exceeded needs and should be transferred to the MOH or another family planning
organization that can use the supplies before they expire.

    Recommendation No. 3: We recommend that USAID/Guatemala review the
    quantity of contraceptives on hand estimated at $80,905 for the NGOs working
    with the MOH and transfer excess contraceptives to the Ministry of Health or
    another family planning organization to reasonably ensure that they will be used
    before they expire.



                                                                                       12
   Recommendation No. 4: We recommend that USAID/Guatemala ensure that a
   single organization is responsible for programming and projecting annual
   contraceptive consumption for the NGOs working with the Ministry of Health.

Evaluation of Management Comments – In its comments on the draft audit report
USAID/Guatemala reported that it had transferred excess contraceptives to MOH
facilities. While this action is sufficient to close the recommendation, we need to keep
the recommendation open to resolve a difference of opinion on the amount of USG-
funded contraceptives that were put to a better use (i.e., transferred to other
organizations) as a result.           The Mission did not specifically comment on
Recommendation No. 4 since it was not included in our draft report but was instead
added during the process of finalizing our audit report to help correct the underlying
cause of the problem we found.




                                                                                     13
                                                                          APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards to (1) determine whether the program
achieved the planned results described in USAID/Guatemala’s strategic plan, in
Congressional Budget Justifications, and in cooperative agreement and contract
documents; and (2) determine whether USAID/Guatemala and its partners managed
program activities in an efficient manner. The audit focused on the period beginning
October 1, 2004, when USAID/Guatemala’s current family planning strategy became
effective, and ending on December 31, 2005.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to the management of its family planning program. The
management controls identified included performance monitoring plans; the Mission’s
Annual Reports; the Mission’s annual self-assessment of management controls pursuant
to the Federal Managers Financial Integrity Act; and Cognizant Technical Officers’ field
visits, reviews of progress reports, and day-to-day interaction with implementers.

We judgmentally selected sites to visit, giving preference to communities in which a
higher number of family planning services were performed by APROFAM. Our site
selection was also designed to include a representative mix of urban and rural
communities. In total, we visited 11 of Guatemala’s 22 regions, covering 11 of 1,383
MOH health facilities, 9 of APROFAM’s 30 fixed clinics and 8 temporary sites where
APROFAM’s mobile units had provided voluntary sterilization services and other health
services. The number of locations visited and the number of sites receiving assistance
through USAID/Guatemala’s implementers are detailed in the table 8 below:

Table 8 – Breakdown of Sites Visited, by Implementer

                Implementer                     Type of        Total         Number
                                                Facility     Receiving       visited
                                                Visited      Assistance
 APROFAM                                        Clinics          30             9
                                              Mobile Unit       N/A             8
                                                 Sites
 URC - Ministry of Health                        Health          1,383          11
                                              centers and
                                              health posts

N/A means data was not available.

We also conducted audit work at the offices of USAID/Guatemala and its implementers
in Guatemala City from March 27, 2006 through June 11, 2006.

From October 2004 through December 2005, USAID/Guatemala obligated $13.6 million,
expended $3.9 million, and provided $233,613 in family planning commodities in support
of its family planning and other health activities.


                                                                                     14
                                                                             APPENDIX I



Methodology
To answer the audit objectives, we visited health care facilities of the MOH and
APROFAM clinics and mobile unit. At the MOH facilities, we interviewed family service
providers and administrators. We collected and analyzed data on contraceptives
provided by the health care facilities, verified inventory, and reviewed reconciliations. At
APROFAM we interviewed 228 family planning clients, and 107 personnel from the head
office and all three organizational components that provide family planning information,
products, and services as shown in table 9 below.

Table 9 – Breakdown of APROFAM Personnel Interviewed by Program Component

 Program Component                          Total          Sample
                                          Population     Interviewed
 Head Office                                 N/A              11
 Clinical Services                           N/A              38
  Medical Staff                              N/A              30
  Others                                     N/A               8
 Marketing Department                         25              19
  Supervisor                                  3                3
  Sale promoter                              11                8
  Mobile Unit: Medical doctors                3                3
  Mobile Unit: Nurses                         8                5
 Rural Development Project                  3,244             39
  Coordinators                                4                4
  Educators                                   56              14
  Volunteer Promoters                       3,184             21
 TOTAL                                       N/A             107

N/A means data was not available.

We interviewed USAID Mission Cognizant Technical Officers and other responsible
officials and examined documents such as the Mission’s performance monitoring plan
and Annual Report. We visited with officials of the Mission’s implementing partners and
examined agreements, work plans, financial statements, performance monitoring plans,
and progress reports.

To answer our first audit objective, we selected all indicators for which information was
available from the Mission's strategic plan and contract and grant documents related to
family planning. We evaluated the indicator measuring couple-years of protection (CYP)
since it was the strategic objective indicator that belongs to both implementers, had been
evaluated in the data quality assessment, and had been reported in both the Annual
Report and the Congressional Budget Justifications. We also evaluated the percentage
of contraceptives purchased by the MOH (as opposed to received from donations) and
the level of sustainability of APROFAM. To answer the second audit objective on
efficiency we evaluated the two efficiency indicators included in the strategic plan.

Our audit team included a demographer with experience in implementing family planning
and public health activities. To determine the significance of our findings, we judged that


                                                                                         15
                                                                             APPENDIX I

the Mission met planned results if all of the conditions stipulated in indicator definitions
included in the Mission's strategic plan and Annual Report were completed as described
based on our review of supporting documentation and our observations during site visits.
In judging the significance of variances found during the audit between reported
accomplishments and supporting documentation, we considered variances of 5 percent
or more to be significant and reportable.




                                                                                         16
                                                                             APPENDIX II



MANAGEMENT COMMENTS
                                                                        September 8, 2006

MEMORANDUM


To:            Tim Cox, Regional Inspector General

From:          Wayne Nilsestuen, Mission Director, USAID/Guatemala

Subject:       Comments on the Draft Audit Report on USAID/Guatemala Family
               Planning Activities

Thank you for the opportunity to review the formal draft of the Audit Report of
USAID/Guatemala’s Family Planning Activities. We appreciate the extensiveness and
quality of the audit on our family planning program. The comprehensive and detailed
nature of this audit gives us a high degree of confidence in your principal findings that (a)
USAID/Guatemala achieved the planned results described in the strategic plan, in
Congressional Budget Justifications, and in cooperative agreement and contract
documents and (b) USAID/Guatemala and our partners managed family planning
activities in an efficient manner.

With direct assistance from USAID, Guatemala has made tremendous strides in recent
years to provide increased and more equitable access to reproductive health information
and services. Through our efforts to identify and reduce barriers that stand in the way of
couples’ ability to protect and plan their family’s health and well-being, awareness of
family planning even in Guatemala’s most remote areas has risen dramatically and more
women and men are making their own informed decisions regarding the number and
spacing of their children. Contraceptive use increased from 38 percent in 1999 to 43
percent in 2002, a remarkable gain of 1.7 percent per year. Total fertility rates fell from
5.1 children per woman in 1999 to 4.4 in 2002.

For more than three decades, USAID has been the major donor of contraceptives to
Guatemala, and has provided sustained technical assistance to public and private sector
providers to strengthen the contraceptive supply chain and the provision of family
planning services. The health ministry is now the largest contributor to family planning,
serving 44 percent of users nationwide and providing 57 percent of contraceptives
distributed in the country, including to rural and indigenous populations previously not
served. A remarkable success has been the ability of NGO providers to purchase
contraceptives on their own after receiving USAID-donated contraceptives for several
decades. At the end of this year, USAID will no longer purchase contraceptives even for
the health ministry. The political commitment to provide government financing for
contraceptives and family planning services-- secured through USAID-supported,
proactive policy dialogue and advocacy-- has paved the way for its future sustainability.
With USAID’s help, our partners have responded to demand for information and services
and have built a solid infrastructure to get safe contraceptives and other family planning
services to women and men who have opted to use them. The combination of
thoughtful counseling, clear information, effective product supply, and accessible


                                                                                          17
                                                                            APPENDIX II

delivery points has enhanced decision-making among rural and urban couples for the
first time in Guatemala’s history. We are pleased that the Audit Report of
USAID/Guatemala’s Family Planning Activities has affirmed that our activities are
managed efficiently and are achieving results to bring welcomed changes to the lives of
thousands of Guatemalans.

Comments on specific audit findings and assertions

Did USAID/Guatemala’s family planning activities achieve the planned results?

Low level of IUD use - The audit report states that a problem encountered during visits
to Ministry of Health (MOH) facilities included “a low rate of usage of IUDs compared to
other family planning methods.” One of the fundamental principles of our family planning
program is to allow participants to freely choose the contraceptive method that they feel
will work best for them. Our programs do not promote one method over the other;
rather, the method selected depends on a particular woman’s or man’s circumstances
and whether the medical practitioner thinks that a long-term method may be appropriate,
and the woman/man chooses that method after being fully informed of its benefits and
risks. As long as a comprehensive program with a broad mix of contraceptive methods is
available and women and men freely choose which family planning method is best for
them, the relative level of use for different methods should not be a concern. In fact, the
MOH program offers a broad mix of contraceptive methods.

CYP Targets Should Be Set Through a More Rigorous Process.

USAID/Guatemala can explain various findings outlined in the audit:

Process for determining targets - The CYP indicator targets were preliminarily set in
regional discussions related to the CAM Strategy and its Performance Management Plan
in late 2003 and were revised in 2004 for the Guatemala Country Plan “Investing in
People” (520-023). Records from our files were provided to the auditors that show how
the targets were developed (see attachment 1).

Reconciliation of overall and partner targets - The overall CYP program target for FY
2005 was set in 2004 and we failed to update that target to reconcile the figures after
negotiating separate targets with individual partners. Changes that occurred to affect
target levels developed for partners include: 1) USAID postponement of a new
APROFAM agreement in order to address concerns about internal governance issues –
which meant that APROFAM operated for six months in FY 2005 under a no-cost
extension, and 2) mutual agreement to emphasize building sustainability during the
period of the new agreement and recognition that this emphasis might imply less-rapid
expansion of family planning services.

Target levels set below previously achieved levels – In transitioning to an Agency-
wide requirement for fiscal year reporting, the Mission made an error in estimating and
calculating the FY 2004 baseline. Using that baseline led to CYP targets for FY 2005
and FY 2006 that ended up being below the actual level when final figures were reported
(see attachment 1). This error has been corrected and partners have been advised.

Inclusion of MOH-funded NGOs in MOH targets – The draft report refers to a
discrepancy between USAID and contractor (URC) personnel regarding whether CYPs


                                                                                        18
                                                                           APPENDIX II

associated with MOH-funded NGO programs were included in MOH target figures. The
attached letter from URC acknowledges that the MOH target is for both the MOH and
the MOH NGOs (see attachment 2). URC collects and reports CYP from MOH
institutional facilities and USAID/Guatemala adds those numbers to the CYP reported by
the MOH’s unit responsible for MOH-funded NGO services to yield the total MOH CYP.
Because the NGO consumption figures are recorded in a system that is different than
the one used by MOH institutional facilities, they are reported directly to
USAID/Guatemala and USAID/Guatemala consolidates the MOH NGO data and the
data reported by URC for the MOH.

Targets set below previous levels to focus on sustainability – The draft audit report
incorrectly states that “ with the exception of sterilization services, more CYP implies
greater sustainability, not less.” APROFAM family planning services do not pay for
themselves, they are subsidized by other services. It is not the contraceptive that is
expensive, it is the service. Gross profit from temporary contraceptive methods may
seem high (two to three times the cost), but this marginal profit must support other costs
such as counseling, education, and information activities and taking the service to more
remote areas. The success of APROFAM has been its carefully established system of
cross-subsidy between family planning and the profitable, non-family planning-related
services.

Therefore, when USAID and APROFAM agreed to focus on achieving full sustainability
in the new agreement, we recognized that achieving that goal while simultaneously
expanding family planning services at previous rates would be difficult. USAID agreed
that APROFAM would not be required to provide family planning services in several
remote, unprofitable areas (e.g. Ixcán) that the government had now intended to cover—
areas that had been served by APROFAM’s mobile clinics primarily for heavily
subsidized sterilizations. Thus, the new agreement with APROFAM states that CYP
production should be close to FY 2004 production levels and not be below 80% of FY
2004 production (or 263,230 CYP). Negotiation of the APROFAM CYP target also took
into consideration other factors: 1) USAID funds were reduced from appropriately $2.5
million per year under the previous strategy to an average of $1.9 million per year under
the current strategy; 2) The MOH was increasing its coverage of family planning services
provided at no cost to the client, and this expansion of MOH coverage represented a
significant source of competition for APROFAM; 3) In 2005, USAID lowered the
conversion factor for sterilization from 11 to 10 CYP, thus reducing by 10% the number
of CYP for sterilizations that APROFAM would achieve with the same resources.

Closing the gap between urban and rural areas in family planning – The current
Investing in People: Healthier, Better-Educated People strategic objective does not
explicitly state that a goal of the program is to bridge the gap between urban and rural
areas with respect to access to family planning services (as did the previous 1997-2004
health strategy). As outlined in the Guatemala Country Plan (attachment 3), the goal of
the current strategy is to achieve national level impact through the implementation of a
national-level family planning program. Neither the approved CAM PMP nor the Mission
PMP establishes CYP targets for rural and urban areas. While we do want our program
to help close that gap, as explained in more detail below, the costs of revamping
reporting systems to measure urban versus rural CYPs on an annual basis would
outweigh the benefits – therefore we have not made this a stated goal that requires
annual disaggregated reporting.



                                                                                       19
                                                                                            APPENDIX II

CYP Reporting Should Be Improved

Discrepancies between reported and actual CYP levels – The numbers in the draft
audit report are inconsistent in this section. The first bullet points out a difference of
13,482 CYP between reported levels and the CYP reported by individual partners “for
the entire program” – a difference of 2.4%. The other bullets refer to subsets of the
program, so are thus included in the figure used for the entire program. The statement
that CYPs associated with MOH-supported NGOs were not included in the MOH figures
is incorrect – we added those figures to the CYPs of MOH institutions (though we only
had projections for the last quarter). The section then concludes stating that “these
errors involved 30,342 CYP or 5.4 percent of the amounts verified by the auditors” but
this number is inconsistent with the first bullet and the other numbers do not add up to
this amount. Since the level of discrepancy for the entire program is less than the
threshold level in the audit methodology, we request that the entire section be removed
from the final audit report. Nonetheless, we agree that more oversight of partner CYP
calculations is desirable and have taken actions to ensure such oversight.

Comments on recommendations

After careful review of the RIG draft audit report, the Mission agrees with three of the
four recommendations. We hereby request, on the basis of actions already carried out,
that Recommendations 1, 3, and 4 be closed upon issuance of this Audit Report and that
Recommendation 2 be deleted.

Recommendation 1 - Revise targets for Couple Years of Protection

The Mission agrees with this recommendation and presents our new revised targets
below. The PMP indicator tables have been modified accordingly (attachment 4).

Revised New Strategy CYP Targets

                       FY 04                    FY 05                     FY 06
                Actual      Baseline  Lower target Upper target Lower target Upper target
Public Sector    293,487      293,487    308,161      308,161      323,569       323,569
APROFAM          263,230      210,584    210,584      263,230      210,584       263,230
Overall          556,717      504,071    518,745      571,391      534,153       586,799


As presented in the table above, the 2004 baseline has been recalculated based on the
corrected 2004 actuals and calculating 100 percent of public sector production and 80
percent (lower target) of APROFAM’s production. The FY 2006 targets were re-
calculated using the new baseline numbers. The rule of thumb for future MOH
projections is a five percent increase per year based on historical trends and anticipated
resource levels. APROFAM’s performance target is indeed ambitious and inspires
improved performance over time considering the cooperative agreement mandate to
preserve the quality and informed choice of its family planning service delivery outputs,
maintain CYP production levels close to FY 2004 levels and not below 80% of FY 2004
levels, and achieve greater sustainability and reach 100% sustainability by the end of the
agreement. As per USAID policy, targets for future years will be determined on the
basis of actual levels from the previous year at the time of the Mission portfolio review
and submission of the Annual Report.




                                                                                                     20
                                                                          APPENDIX II

Recommendation 2 – Disaggregate established targets between urban and rural
areas for the total fertility rate, the contraceptive prevalence rate, and couple
years of protection indicator.

The Mission disagrees with this recommendation. As noted above, reducing the gap
between rural and urban areas is not an explicitly stated goal under our current strategy
and therefore the approved CAM PMP and the corresponding Guatemala Country Plan
PMP do not disaggregate these indicators. Under the mandate of the CAM strategy, the
Mission is focused on national impact of all its programs, including the family planning
program. Total Fertility Rate and Contraceptive Prevalence Rate will be determined
through the 2007 DHS and will be reported by the Mission as soon as the data are
available. Data collection systems that are in place by the MOH and MOH NGOs and
APROFAM do not permit the data to be accurately and reliably reported for urban and
rural areas. We believe that the benefits to reporting annual CYP data disaggregated by
rural and urban areas do not outweigh the significant cost and labor that would be
required to reengineer the reporting systems, especially at this time when the Mission
faces reduced funding levels for our family planning activities.

Nonetheless, we are confident that our support to the MOH and APROFAM is effectively
leading to increased contraceptive security in rural and indigenous areas that will be
captured by the DHS and reported in 2007. The data will be reported for national totals,
but they will additionally be disaggregated for urban/rural and indigenous/non-indigenous
population strata. The Mission will use this vital information for decision-making
purposes and especially to inform new directions for its future family planning programs.

Recommendation 3 – Establish procedures to recalculate information on couple
years of protection reported by partners.

The Mission agrees with this recommendation, and on the basis of actions already
carried out, and listed below, we request that you close the recommendation.

To ensure that the information the Mission reports on CYP is accurate and reliable, the
Mission has established a procedure to standardize CYP reporting among organizations
and to recalculate CYP information provided by partners. The current procedure verifies
quality of data, consistency of data among different reporting levels, and controls for
errors that could be made while aggregating the data or applying the conversion factors
to the consumption data. The new suggested process consists of the following steps:

   1. Implementing partners (MOH and APROFAM) collect primary data (consumption
      and new users) from their service networks;
   2. Implementing partners apply USAID’s official conversion factors to produce and
      report CYP;
   3. USAID/GUATEMALA obtains disaggregated data from the local reporting units
      (MOH’s health area directorates and APROFAM’s clinics, mobile units and the
      rural development program);
   4. USAID/GUATEMALA migrates these disaggregated data onto spreadsheets that
      automatically calculate CYP by method and by level of reporting institutions (see
      attachment);
   5. USAID/GUATEMALA calculates aggregated CYPs by institution and compares it
      with the reports submitted by implementing partners;



                                                                                      21
                                                                           APPENDIX II

   6. USAID/Guatemala discusses discrepancies with partners and differences are
      resolved;
   7. USAID/Guatemala monitors consistency and accuracy of reported data by spot
      checks at health centers, posts, hospitals, clinics, mobile units, and community-
      based distribution points, and review of source documents;
   8. USAID/Guatemala documents steps taken to review, recalculate and verify
      partners’ information.

In addition to establishing the above procedure, the following actions were also
undertaken to improve CYP reporting (see attached corresponding documents):

   •   Assessed the reporting process from MOH facilities to the MOH central level
       (January 2006) (attachment 5)
   •   Reviewed the reporting process utilized by the Unidad Prestadora de Servicios
       del nivel I (UPS-1) for contraceptive methods consumption by MOH NGOs
       (February 2006)
   •   Assessed the level of confidence of reports received by the MOH central level
       from decentralized and local levels (March 2006) (ATTACHMENT 6)
   •   Verified that all partners are aware of and are using the currently authorized
       conversion factors for all family planning methods (July 2006)
   •   Reviewed and revised the Mission’s CYP Data Quality Assessment (July 2006;
       September 2006) (attachment 7)
   •   Discussed with Mission Management regarding the need to move back the SO
       portfolio reporting period so that partners can report actual data for September
       versus projections (July 2006)
   •   Letter sent to partners requesting that they submit cumulative FY CYP actuals in
       the fourth quarterly report (August 2006) (attachment 8)
   •   Recalculated CYP for sterilizations and natural methods reported by partners for
       FY 2006 3rd quarter using authorized conversion factors (August 2006)
   •   Negotiated with the MOH that the new Logistics Unit will integrate the distribution
       and consumption information from MOH NGOs into the MOH database in order
       to generate one consolidated MOH CYP report (August 2006) (attachment 9)
   •   Pilot tested CYP conversion factors spreadsheets with URC (August 2006)
       (attachment 10)

Recommendation 4 – Review the quantity of contraceptives on hand for the NGOs
working with the MOH and transfer excess contraceptives

The Mission agrees with the recommendation and requests that the recommendation be
closed due to actions already taken.

USAID/Guatemala is supporting the MOH to expand basic health services, including
family planning, throughout the country. One of the key health portfolio activities is
support for the MOH Coverage Extension Program to provide services for 350,000
additional persons.     For a myriad of reasons, the procurement and start-up
implementation of this activity was delayed for several months. Because we had
anticipated an increase in the total population covered by MOH NGOs funded by USAID
and the MOH, the order for additional contraceptive methods was placed. The newly
ordered quantities arrived in CY 2005, but because of the delay in the USAID
procurement, the new NGO service providers were not yet contracted and able to



                                                                                       22
                                                                        APPENDIX II

distribute contraceptive methods. This delay caused an overstocking of contraceptive
methods in the central warehouse.

The following corrective actions, among others, were taken by USAID/Guatemala to
reduce stock levels (see attached documentation):

   •   Reviewed expected demand for 2006 with the MOH and APROFAM (September-
       October 2005) (attachment 11)
   •   Adjusted contraceptive orders for CY 2006 (January 2006) (attachment 12):

                            Original order        Corrected order
       Condoms              48,000                0
       Depo-Provera         60,800                18,000
       Lo-Femenal           25,200                2,400

   •   Undertook three field visits to local warehouses to a) check stock inventory, b)
       train UATs (Technical Assistance Units) and NGO staff in procedures to analyze
       consumption trends, project needs, and use authorized forms (Balance,
       Requisition and Delivery of Supplies-BRES- and Integrated Information System
       Report 6-SIGSA 6-) and c) coordinate through UATs the transfer of excess
       contraceptive methods stock to MOH facilities (March 2006) (attachment 13).

While the above corrective actions were being undertaken, the MOH completed the
process of contracting the MOH’s Extension of Coverage NGOs to provide services in
46 new communities. The new contracts facilitated the delivery of contraceptive methods
to the field and resulted in a significant decrease in the months of supply at hand for
every method in the APROFAM central warehouse.

The USAID Contraceptive Procurement Guide and Product Catalog recommend a year-
end stock level should generally not exceed 12 months. As of the current date, no
contraceptive stock level exceeds 12 months. The APROFAM-reported inventory levels
as of July 31, 2006 and August 28, 2006 for these methods whose expiration date is
2009, are the following (attachment 14):

                          MOH NGO Inventory
Contraceptive       Stock as of Stock as Stock as             Monthly         Months’
                    12/31/2005  of         of                 average         Supply
                                7/31/2006 8/28/2006           consumption     on Hand
Oral Contraceptive: 25,886      6,760      4,820              2,091           2.3
Lo-Femeral, Gragea,
Ciclo 28, c/m
Injectable          87,118      21,200     14,599             7,116            2.1
Contraceptive:
Depo-Provera, Vial,
Unit
Condom, Unit        98,577      50,884     47,434             4,887           9.7

In October, USAID will receive a new shipment of oral and injectable methods that will
provide three months of stock. When USAID’s contraceptive distribution agreement
between the MOH and APROFAM expires in December 2006, any remaining stock of


                                                                                     23
                                                                              APPENDIX II

contraceptive methods will be transferred to the MOH National Reproductive Health
Program.

The Mission does not agree with the auditors’ intention to claim an efficiency savings of
$80,905 related to the transfer of excess stocks of contraceptives since the referred
stock has been allocated to the MOH NGOs and is being distributed to users.

Although after 2006 the USAID Mission will no longer provide contraceptives to the MOH
or MOH NGO service providers, the Mission will continue to assist the MOH in projecting
and tracking stock levels through (a) the use and analysis of two standardized forms
(BRES and SIGSA 6) for data verification purposes, as well as by b) participating in
biannual workshops to review information generated by the software Pipeline to create
and review Contraceptive Procurement Tables and c) participating in an annual
workshop on contraceptive needs forecasting and generation of programmatic targets.

Final comments

Given the high degree of collaboration in the conduct of this audit, including considerable
Mission staff time in providing information, we request our comments to date be given
due consideration in the final report.

We appreciate the commitment of you and your staff to carry out such a comprehensive
audit. Your work has helped us better understand the issues associated with family
planning program effectiveness and efficiency.



*      *      *


Attachments

The attached documentation is provided as a basis for our statements and closing audit
recommendations:

    List of Attachments:

    1. Support Documents for Targets Established for the Family Planning Program

    2. URC Letter on MOH Targets

    3. Regional Strategy for Central America and Mexico FY 2003-2008. Volume 2: Annex E:
       Guatemala Country Plan (page 20, paragraph following “Intermediate Result 3: Improved
       integrated management of child and reproductive health”, fifth sentence)
       http://inside.usaid.gov/LAC/pdf/guatemala_2003.pdf

    4. Revised Baseline and Targets

    5. Assessment of reporting process from MOH facilities to the MOH central level (January
       2006)

    6. Assessment of the level of confidence of reports received by the MOH central level from
       decentralized and local levels (March 2006)



                                                                                           24
                                                                         APPENDIX II


7. Review and revision of the Mission’s CYP Data Quality Assessment (July 2006)

8. Letter sent to URC requesting that they submit as necessary a revised annual CYP
   actual report to USAID after final FY data are processed

9. Weekly report from URC logistics advisor on meetings with MOH regarding inclusion of
   NOGs data into the Reproductive Health National Program reporting system

10. Standard Form for Calculating CYPs

11. Reviewed expected demand for 2006 with the MOH and APROFAM (September-October
    2005)

12. Contraceptive procurement cable 2006

13. Field visits reports to NGOs

14. APROFAM inventory reports




                                                                                    25
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
